AUDIT OF OFFICE OF JUSTICE PROGRAMS GRANTS

     AWARDED TO THE CHEROKEE NATION

           TAHLEQUAH, OKLAHOMA



          U.S. Department of Justice

        Office of the Inspector General

                 Audit Division


         Audit Report GR-60-14-003

               February 2014

        AUDIT OF OFFICE OF JUSTICE PROGRAMS GRANTS

             AWARDED TO THE CHEROKEE NATION

                   TAHLEQUAH, OKLAHOMA


                              EXECUTIVE SUMMARY


       The U.S. Department of Justice (DOJ), Office of the Inspector General (OIG),
Audit Division, has completed an audit of four grants awarded by the Office of
Justice Programs (OJP): Grant No. 2008-DD-BX-0081, awarded through the Sex
Offender Sentencing, Monitoring, Apprehending, Registering, and Tracking (SMART)
Office; Grant Nos. 2009-DC-BX-0117 and 2012-TY-FX-0016, awarded through the
Office of Juvenile Justice and Delinquency Protection (OJJDP); and Grant No.
2011-AC-BX-0016, awarded through the Bureau of Justice Assistance (BJA); to the
Cherokee Nation, as shown in Exhibit 1.

EXHIBIT 1:      GRANTS AWARDED TO THE CHEROKEE NATION
                                           PROJECT START      PROJECT
     GRANT NUMBER           AWARD DATE         DATE          END DATE         AMOUNT
 2008-DD-BX-0081             04/14/08        04/01/08        03/31/11          $ 134,375
 2009-DC-BX-0117             09/22/09        10/01/09        09/30/14            425,000
 2011-AC-BX-0016             09/14/11        10/01/11        09/30/13            500,000
 2012-TY-FX-0016             09/27/12        10/01/12        09/30/15            496,916
                                                                  Total:     $1,556,291
Source: The Office of Justice Programs (OJP) Grant Management System (GMS)

Background

      The OJP’s Adam Walsh Child Protection and Safety Act of 2006 authorized the
SMART Office to implement a Sex Offender Management Assistance program
(SOMA). SOMA grants were to assist state, local and tribal jurisdictions in
implementing and/or enhancing sex offender registration and notification programs
which support compliance with the Sex Offender Registration and Notification Act
(SORNA). SORNA was enacted to protect the public from convicted sex offenders
and offenders against children by establishing a comprehensive national system for
the registration of those offenders.

       The OJJDP’s Grants to Expand Substance Abuse Treatment Capacity for
Juvenile Drug Courts Program was to support programs to enhance and expand
substance abuse treatment capacity for juvenile drug courts. The Substance Abuse
and Mental Health Services Administration, Center for Substance Abuse Treatment
(CSAT) and the OJJDP in partnership with the Robert Wood Johnson Foundation
(RWJ) issued a joint solicitation for the Fiscal Year (FY) 2009 Juvenile Drug Court
Program. The purpose of the program was to enhance the capacity of existing
juvenile drug courts to serve substance-abusing juvenile offenders through the
integration and implementation of the Juvenile Drug Court: Strategies in Practice
and the Reclaiming Futures program models. CSAT was to provide funding for the
treatment component of the program and OJJDP was to provide funding for the
operation of the juvenile drug court component.
       The FY 2011 Coordinated Tribal Assistance Solicitation (CTAS) served as a
single solicitation for existing tribal government-specific grant programs
administered by the OJP, the Office of Community Oriented Policing Services and
the Office on Violence Against Women. The CTAS solicitation was designed to
assist tribes with addressing crime and public safety issues in a comprehensive
manner.

        The FY 2012 CTAS also served as a single solicitation for existing tribal
government-specific grant programs. The FY 2011 and FY 2012 CTAS
grant-application processes were inspired by and developed after consultation with
tribal leaders, including sessions at the DOJ's Tribal Nations Listening Session in
2009, and were updated based on continued tribal consultations and listening
sessions.

       According to its website, the Cherokee Nation is the federally-recognized
government of the Cherokee people and has inherent sovereign status recognized
by treaty and law. The seat of tribal government is the W.W. Keeler Complex near
Tahlequah, Oklahoma, the capital of the Cherokee Nation. With more than 317,000
citizens, over 8,000 employees and a variety of tribal enterprises ranging from
aerospace and defense contracts to entertainment venues, Cherokee Nation’s
economic impact in Oklahoma and surrounding areas is more than $1.5 billion
annually. Cherokee Nation is one of the largest employers in northeastern
Oklahoma and is the largest tribal nation in the United States. The Cherokee
Nation’s stated mission is a commitment to protect its sovereignty, preserve and
promote Cherokee culture, language and values, and improve the quality of life for
the next seven generations of Cherokee citizens.

Our Audit Approach

        The purpose of the audit was to determine whether costs claimed under the
grant were allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grant. The objective of the
audit was to review performance in the following areas: (1) internal control
environment, (2) drawdowns, (3) grant expenditures, (4) budget management and
control, (5) financial status and progress reports, (6) program performance and
accomplishments, (7) post grant end-date activities, (8) property management,
(9) matching costs, (10) monitoring of subgrantees and contractors, and
(11) special grant requirements. We determined that program income was not
applicable to this audit. We tested compliance with what we consider to be the
most important conditions of the grants. Unless otherwise stated in this report, the
criteria we audit against are contained in the OJP Financial Guide and the award
documents.

      We examined Cherokee Nation’s accounting records, financial and progress
reports, and operating policies and procedures and found:

   •	 Activities under one contract were initiated , but had not been formally

      signed by the contractor or Cherokee Nation officials;


                                          ii
   •   Two unallowable expenditures, totaling $2,662;

   •   Two unbudgeted expenditure types, totaling $2,193; and,

   •   Progress reports were submitted late for two of the four grants audited.

       This report contains four findings and four recommendations, which are
detailed in the Findings and Recommendations section of the report. Our audit
objectives, scope, and methodology are discussed in Appendix I.




                                         iii
                                     TABLE OF CONTENTS


INTRODUCTION ..........................................................................................1

  Background................................................................................................ 1

  Our Audit Approach ..................................................................................... 2

FINDINGS AND RECOMMENDATIONS ..........................................................4

 Prior Audits ................................................................................................ 4

 Internal Control Environment ....................................................................... 4

 Drawdowns ................................................................................................ 5

 Grant Expenditures ..................................................................................... 5

 Budget Management and Control .................................................................. 5

 Grant Reporting .......................................................................................... 6

   Financial Reporting................................................................................... 6

   Categorical Assistance Progress Reports ..................................................... 6

 Program Performance and Accomplishments .................................................. 7

 Conclusion ................................................................................................. 8

 Recommendations....................................................................................... 9

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY..........................10

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS ...................... 12

APPENDIX III - SUMMARY OF UNALLOWABLE AND UNSUPPORTED

  EXPENDITURES .................................................................................... 13

APPENDIX IV - CHEROKEE NATION RESPONSE ......................................... 14

APPENDIX V - OFFICE OF JUSTICE PROGRAMS RESPONSE........................ 15

APPENDIX VI - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ................ 18

        AUDIT OF OFFICE OF JUSTICE PROGRAMS GRANTS

             AWARDED TO THE CHEROKEE NATION

                   TAHLEQUAH, OKLAHOMA


                                  INTRODUCTION


       The U.S. Department of Justice (DOJ), Office of the Inspector General (OIG),
Audit Division, has completed an audit of four grants awarded by the Office of
Justice Programs (OJP): Grant No. 2008-DD-BX-0081, awarded through the Sex
Offender Sentencing, Monitoring, Apprehending, Registering, and Tracking (SMART)
Office; Grant Nos. 2009-DC-BX-0117 and 2012-TY-FX-0016, awarded through the
Office of Juvenile Justice and Delinquency Protection (OJJDP); and Grant No.
2011-AC-BX-0016, awarded through the Bureau of Justice Assistance (BJA); to the
Cherokee Nation, as shown in Exhibit 1.

EXHIBIT 1:      GRANTS AWARDED TO THE CHEROKEE NATION
                                           PROJECT START      PROJECT
     GRANT NUMBER           AWARD DATE         DATE          END DATE          AMOUNT
 2008-DD-BX-0081             04/14/08        04/01/08        03/31/11           $ 134,375
 2009-DC-BX-0117             09/22/09        10/01/09        09/30/14             425,000
 2011-AC-BX-0016             09/14/11        10/01/11        09/30/13             500,000
 2012-TY-FX-0016             09/27/12        10/01/12        09/30/15             496,916
                                                                  Total:      $1,556,291
Source: The Office of Justice Programs (OJP) Grants Management System (GMS)

Background

      The Adam Walsh Child Protection and Safety Act of 2006 authorized the
SMART Office to implement a Sex Offender Management Assistance program
(SOMA). SOMA grants were to assist state, local and tribal jurisdictions in
implementing and/or enhancing sex offender registration and notification programs
which support compliance with the Sex Offender Registration and Notification Act
(SORNA). SORNA was enacted to protect the public from convicted sex offenders
and offenders against children by establishing a comprehensive national system for
the registration of those offenders.

       The Grants to Expand Substance Abuse Treatment Capacity for Juvenile Drug
Courts Program was to support programs to enhance and expand substance abuse
treatment capacity for juvenile drug courts. The Substance Abuse and Mental
Health Services Administration, Center for Substance Abuse Treatment (CSAT) and
the OJJDP in partnership with the Robert Wood Johnson Foundation (RWJ) issued a
joint solicitation for the Fiscal Year (FY) 2009 Juvenile Drug Court Program. The
purpose of the program was to enhance the capacity of existing juvenile drug
courts to serve substance-abusing juvenile offenders through the integration and
implementation of the Juvenile Drug Court: Strategies in Practice and the
Reclaiming Futures program models. CSAT was to provide funding for the
treatment component of the program and OJJDP was to provide funding for the
operation of the juvenile drug court component.
       The FY 2011 Coordinated Tribal Assistance Solicitation (CTAS) served as a
single solicitation for existing tribal government-specific grant programs
administered by the OJP, the Office of Community Oriented Policing Services and
the Office on Violence Against Women. The CTAS solicitation was designed to
assist tribes with addressing crime and public safety issues in a comprehensive
manner.

        The FY 2012 CTAS also served as a single solicitation for existing tribal
government-specific grant programs. The FY 2011 and FY 2012 CTAS
grant-application processes were inspired by and developed after consultation with
tribal leaders, including sessions at the DOJ's Tribal Nations Listening Session in
2009, and were updated based on continued tribal consultations and listening
sessions.

       According to its website, the Cherokee Nation is the federally-recognized
government of the Cherokee people and has inherent sovereign status recognized
by treaty and law. The seat of tribal government is the W.W. Keeler Complex near
Tahlequah, Oklahoma, the capital of the Cherokee Nation. With more than 317,000
citizens, over 8,000 employees and a variety of tribal enterprises ranging from
aerospace and defense contracts to entertainment venues, Cherokee Nation’s
economic impact in Oklahoma and surrounding areas is more than $1.5 billion
annually. Cherokee Nation is one of the largest employers in northeastern
Oklahoma and is the largest tribal nation in the United States. The Cherokee
Nation’s stated mission is a commitment to protect its sovereignty, preserve and
promote Cherokee culture, language and values, and improve the quality of life for
the next seven generations of Cherokee citizens.

Our Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria we audit
against are contained in the OJP Financial Guide and grant award documents. We
tested Cherokee Nation’s:

   •	 internal control environment to determine whether the internal controls in
      place for the processing and payment of funds were adequate to safeguard
      grant funds and ensure compliance with the terms and conditions of the
      grant;

   •	 grant drawdowns to determine whether grant drawdowns were adequately
      supported and if Cherokee Nation was managing grant receipts in accordance
      with federal requirements;

   •	 grant expenditures to determine the accuracy and allowability of costs
      charged to the grant;

   •	 budget management and control to determine Cherokee Nation’s 

      compliance with the costs approved in the grant budget;




                                          2

   •	 Federal Financial Reports (FFRs) and Progress Reports to determine if
      the required FFRs and Progress Reports were submitted in a timely manner
      and accurately reflect grant activity;

   •	 grant objectives and accomplishments to determine whether Cherokee
      Nation is capable of meeting the grant objectives;

   •	 grant closeout activities to determine whether Cherokee Nation met grant
      closeout requirements.

     The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology appear in Appendix I.




                                        3

                  FINDINGS AND RECOMMENDATIONS

      We found that Cherokee Nation appeared to have adequate internal
      controls over grant financial and accounting activities. However, we
      found that activities were initiated under one contract prior to being
      signed by the Cherokee Nation or the contractor; the Cherokee Nation
      incurred two unallowable transactions totaling $2,662 and
      expenditures in two unbudgeted categories totaling $2,193.
      Additionally, progress reports were submitted late for two of the grants
      audited. Based on our audit results, we make two recommendations
      to address dollar-related findings and two recommendations to
      improve the management of DOJ grants.

Prior Audits

       The Office of Management and Budget (OMB) Circular A-133 requires that
non-federal entities that expend $500,000 or more per year in federal awards have
a single audit performed annually. We determined that Cherokee Nation was
required to submit Single Audits during the scope of our audit, as federal
expenditures exceeded $500,000 in each year in the scope of our audit. We
reviewed Cherokee Nation’s Single Audits for the years ending September 30,
2010, September 30, 2011, and September 30, 2012, and determined there were
findings and questioned costs related to Housing and Urban Development funding
for the 2011 and 2012 Single Audits, but no findings related to DOJ funds.

Internal Control Environment

       We reviewed Cherokee Nation’s internal control environment, including
procurement, receiving, payment, and payroll procedures, and contractor controls.
We consider Cherokee Nation’s documented fiscal policies and guidelines to be
adequate; Cherokee Nation’s financial management policies appear to address
internal controls and permitted activities related to strong internal controls. We
reviewed oversight of grant activities by Cherokee Nation’s accounting staff,
management, and executive officials, and determined oversight to be adequate,
with strong segregation of duties.

       While we found that Cherokee Nation appeared to generally have adequate
controls over grant financial and accounting activities, we identified one active
contract that was not signed by Cherokee Nation officials or the contractor.
Cherokee Nation officials informed us that the contract was a renewal of the
previous year’s contract and was in the process of being signed by the contractor
and routed to Cherokee Nation contract management staff. While we concluded the
contractor’s work under an unsigned contract was contrary to grant management
guidelines, we determined there were no questioned costs associated with the
contract, as it was a renewal of the prior year’s contract and because the contractor
had not received payment on the contract at the time of this audit. We recommend



                                         4

OJP coordinates with Cherokee Nation to ensure that grant-related contracts are
signed by all parties prior to performance of any work under a contract.

Drawdowns

       We determined that the grants awarded to Cherokee Nation were
reimbursement based, and therefore subject to the OJP Financial Guide
requirement that drawdown requests be timed to ensure that federal cash on hand
is the minimum needed for disbursements or reimbursements to be made
immediately or within the next ten days.

       We analyzed grant drawdowns and expenditures to determine if the total
actual costs recorded in the accounting records were equal to, or in excess of, the
cumulative drawdowns as reported by OJP. We found that grant expenditures were
equal to or in excess of drawdown amounts for each grant.

Grant Expenditures

       According to the OJP Financial Guide, a grantee is responsible for establishing
and maintaining an adequate system of accounting, financial records, and internal
controls to accurately account for the funds awarded to them. An acceptable and
adequate system must: (1) present and classify projected historical costs of the
grant as required for budgetary and evaluation purposes; (2) provide costs and
property control to ensure optimal use of funds; (3) control funds and other
resources to assure that the expenditure of funds and use of property conform to
any general or special conditions that apply to the recipient; (4) meet the
prescribed requirements for periodic financial reporting of operations; and
(5) provide financial data for planning, control, measurement, and evaluation of
direct and indirect costs.

       We tested a judgmental sample of 100 Cherokee Nation grant expenditures,
totaling $377,572, and identified two unallowable transactions for Grant
No. 2011-AC-BX-0016, totaling $2,662. Those expenditures were for tuition
reimbursement, which was not included in the approved grant budget. We
recommend OJP coordinates with Cherokee Nation to remedy the $2,662 for two
unallowable expenditures for Grant No. 2011-AC-BX-0016.

Budget Management and Control

       Cherokee Nation received approved budgets for each grant, which included
Personnel, Fringe Benefits, Travel, Equipment, Supplies, Contractual, and Other
budget categories. If changes are subsequently made, the OJP Financial Guide
requires that prior approval from the granting agency be obtained if modifications
will result in a change that exceeds 10 percent of the total award amount. We used
the approved budget to determine the approved budgeted amounts by category.




                                          5

      We compared the approved budgets and expenditures for each grant and
determined that each grant was in compliance with the OJP Financial Guide’s 10­
percent rule.

      Cherokee Nation accounting records identified expenditures in unbudgeted
categories for two grants. For Grant No. 2009-DC-BX-0117, $1,380 was charged to
“Space Cost,” which was not part of the approved budget for that grant. For Grant
No. 2011-AC-BX-0016, $813 was charged to “Recruitment,” which was not part of
the approved budget for that grant. Because these expenditures were not part of
the approved budgets for the grants, we question the amount of $2,193 as
unallowable. We recommend OJP coordinates with Cherokee Nation to remedy the
$2,193 for unallowable unbudgeted expenditures for Grant Nos. 2009-DC-BX-0117
and 2011-AC-BX-0016.

Grant Reporting

      We reviewed the Financial Reports and Categorical Assistance Progress
Reports (Progress Reports) to determine if the required reports had been submitted
accurately, and within the timeframes required by the OJP Financial Guide.

Financial Reporting

       For financial reporting prior to October 1, 2009, the OJP Financial Guide
states that Financial Status Reports (FSRs) should be submitted online no later than
45 days after the last day of each quarter. The OJP Financial Guide also states that
effective for the quarter beginning October 1, 2009, grant recipients must report
expenditures online using the Federal Financial Report (FFR) no later than 30 days
after the end of each calendar quarter. 1

       According to the OJP Financial Guide, recipients shall report the actual
expenditures and unliquidated obligations incurred for the reporting period on each
financial report. Also, award recipients should report program outlays and revenue
on a cash or accrual basis in accordance with their accounting system.

       Based on the above criteria, we reviewed Cherokee Nation’s FFRs for
timeliness and accuracy. We reviewed the four most recent FFRs for each grant,
and determined each FFR was submitted timely and accurately.

Categorical Assistance Progress Reports

       According to the OJP Financial Guide, Categorical Assistance Progress Reports
are due semiannually on January 30 and July 30 for the life of the award. To verify
the timely submission of Progress Reports, we reviewed the last four Progress


       1
          The Office of Justice Programs changed from using SF-269 Financial Status Reports (FSRs)
to SF-425 Federal Financial Reports (FFRs), beginning October 1, 2009. For consistency purposes, we
use the term “FFR” throughout this audit when discussing any financial reports submitted by Cherokee
Nation for the audited grant.

                                                 6

Reports submitted for the grant to determine if the reports had been submitted as
required by the OJP Financial Guide. We determined the four most recent Progress
Reports for Grant Nos. 2009-DC-BX-0016 and 2012-TY-FX-0016 were submitted
timely; however, we determined that three of the four Progress Reports reviewed
for Grant No. 2008-DD-BX-0081 were submitted late, and two of three Progress
Reports submitted for Grant No. 2011-AC-BX-0016 were submitted late, as shown
in Exhibit 2. We recommend that OJP ensures that Cherokee Nation has a process
in place to submit all progress reports in a timely manner.

EXHIBIT 2:        LATE PROGRESS REPORTS
                                 REPORT PERIOD                               DATE      DAYS
     REPORT NO.                 FROM - TO DATES           DUE DATE         SUBMITTED   LATE
Grant No. 2008-DD-BX-0081
           4                 07/01/09 – 12/31/09          01/30/10          08/18/10   200
           5                 01/01/10 – 06/30/10          07/30/10          08/18/10    19
           6                 07/01/10 – 12/31/10          01/30/11          02/11/11    12
          72                 01/01/11 – 03/31/11          07/30/11          03/31/11    -
Grant No. 2011-AC-BX-0016
           1                 10/01/11 – 12/31/11          01/30/12          05/22/12   113
           2                 01/01/12 – 06/30/12          07/30/12          07/17/12    -
           3                 07/01/12 – 12/31/12          01/30/13          02/14/13    15
Source: OJP GMS

        We also reviewed Progress Reports for accuracy. According to the OJP
Financial Guide, the funding recipient agrees to collect data appropriate for
facilitating reporting requirements established by Public Law 103-62 for the
Government Performance and Results Act. The funding recipient will ensure that
valid and auditable source documentation is available to support all data collected
for each performance measure specified in the program solicitation.

      We reviewed the two most recently submitted Progress Reports for each
grant. For three of the grants, documentation appeared to match reported
information. For Grant No. 2009-DC-BX-0117, reports stated that 19 youth were
served in the reporting period, while documentation supported that 18 youth had
been served. Cherokee Nation officials reviewed the supporting documentation and
concluded that one individual had been counted twice.

Program Performance and Accomplishments

        To assess program performance and accomplishments, we reviewed the
grant documentation and Progress Reports, and interviewed Cherokee Nation
officials, to determine the goals and objectives of the program and whether those
goals and objectives have been or are being implemented.

     We determined Grant No. 2008-DD-BX-0081 had been successfully
completed. Cherokee Nation officials were able to demonstrate that the sex

      2
          Progress Report 7 was the final report for Grant No. 2008-DD-BX-0081.

                                                  7

offender registry had been developed and was still in use. OJP documentation
recognized that the grant program had been successfully implemented.

       The program developed with Grant No. 2009-DC-BX-0117 was active and
appeared to be following the stated goals and objectives. Cherokee Nation officials
stated the program was behind schedule and that a one-year extension of the grant
end date was going to be requested. Cherokee Nation officials also stated they
don’t feel the program is sustainable after the grant ends, due to other similar
programs. We reviewed the most recent Progress Reports for this grant and
determined the reported activities appeared to match the goals and objectives
stated in Cherokee Nation’s application for this grant.

       The program developed with Grant No. 2011-AC-BX-0016 was in an early
stage. At the time of this audit, 4 people had been served by the program, with a
final goal of 25 people served. Cherokee Nation officials stated that the program
was behind schedule, but could be completed by the current end date. We
reviewed the most recent Progress Reports for this grant and determined the
reported activities appeared to match the goals and objectives stated in Cherokee
Nation’s application for this grant, although the Progress Report for the period
ending December 31, 2012, indicated that grant goals were not currently being
met, but stated specific plans to meet grant goals in the next six months.

       The program funded by Grant No. 2012-TY-FX-0016 was in the planning
phase at the time of this audit, but the goals and objectives stated for this program
by Cherokee Nation officials matched the goals and objectives stated in the
application for this grant.

Conclusion

       The purpose of this audit was to determine whether reimbursements claimed
for costs under the grant were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, terms and conditions of the grant, and to
determine program performance and accomplishments. We performed detailed
transaction testing and examined Cherokee Nation’s accounting records, budget
documents, financial and progress reports, and operating policies and procedures.
We found:

    •	 one contract that was currently operating was not signed by the Cherokee
       Nation or the contractor;

    •	 the Cherokee Nation paid $2,662 for two unallowable tuition expenditures
       for Grant No. 2011-AC-BX-0016;

    •	 the Cherokee Nation paid $1,380 for expenditures in one unbudgeted
       category for Grant No. 2009-DC-BX-0117 and $813 for expenditures in one
       unbudgeted category for Grant No. 2011-AC-BX-0016; and,

    •	 Progress Reports were submitted late for two of the audited grants.

                                          8

Recommendations

We recommend that OJP coordinate with Cherokee Nation to:

1.	   Ensure that the Cherokee Nation has controls in place so that contracts are
      signed by all parties prior to performance of any contract work.

2.	   Remedy the $2,662 in unallowable direct cost expenditures.

3.	   Remedy the $2,193 in unallowable expenditures in unbudgeted categories.

4.	   Ensure that the Cherokee Nation has a process in place to submit all Progress
      Reports in a timely manner.




                                        9

                                                                     APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of the audit was to determine whether reimbursements claimed
for costs under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the grants, and
to determine program performance and accomplishments. The objective of the
audit was to review performance in the following areas: (1) internal control
environment, (2) drawdowns, (3) grant expenditures, (4) budget management and
control, (5) financial status and progress reports, (6) program performance and
accomplishments, (7) post grant end-date activities, (8) property management,
(9) matching costs, (10) monitoring of subgrantees and contractors, and
(11) special grant requirements. We determined that program income was not
applicable to this audit.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This was an audit of four
grants awarded to the Cherokee Nation by the Office of Justice Programs (OJP):

   •	 Grant No. 2008-DD-BX-0081, for $134,375, awarded through the Sex
      Offender Sentencing, Monitoring, Apprehending, Registering, and Tracking
      (SMART) Office, which had $46,218 in drawdowns;

   •	 Grant No. 2009-DC-BX-0117, for $425,000, awarded through the Office of
      Juvenile Justice and Delinquency Protection (OJJDP), which had $228,939
      in drawdowns;

   •	 Grant No. 2011-AC-BX-0016, for $500,000, awarded through the Bureau
      of Justice Assistance (BJA), which had $186,894 in drawdowns; and,

   •	 Grant No. 2012-TY-FX-0016, for $496,916, awarded through the Office of
      Juvenile Justice and Delinquency Protection (OJJDP), which had $84,062 in
      drawdowns.

       Our audit concentrated on, but was not limited to, the period from the
April 1, 2008, start date for Grant No. 2008-DD-BX-0081 to August 16, 2013.

       We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria we audit
against are contained in the OJP Financial Guide and the award documents.

      In conducting our audit, we performed sample testing in three areas, which

                                         10

were grant expenditures (including personnel expenditures), Federal Financial
Reports, and Progress Reports. In this effort, we employed a judgmental sampling
design to obtain broad exposure to numerous facets of the awards reviewed, such
as dollar amounts, expenditure category, or risk. However, this non-statistical
sample design does not allow a projection of the test results for all grant
expenditures or internal controls and procedures.

       In addition, we evaluated internal control procedures, performance to grant
objectives, and grant drawdowns, and we assessed the recipient’s monitoring of
subrecipients. However, we did not test the reliability of the financial management
system as a whole and reliance on computer based data was not significant to our
objective.




                                        11

                                                                                  APPENDIX II

                  SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS 3                                               AMOUNT                  PAGE

Unallowable Other Direct Costs                                         $2,662              5

Unallowable Unbudgeted Expenditures                                    $2,193              6

TOTAL QUESTIONED COSTS 4                                              $4,854

TOTAL DOLLAR-RELATED FINDINGS                                         $4,854




       3
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of
funds, or the provision of supporting documentation.

       4
            Throughout this report, differences between individual amounts and totals are due to
rounding.

                                                   12

                                                                        APPENDIX III

         SUMMARY OF UNALLOWABLE AND UNSUPPORTED
                      EXPENDITURES 5

TRANSACTION DATE      CHECK NO.                 PAYEE NAME              AMOUNT QUESTIONED

Unallowable Direct Cost Expenditures
    05/14/13           414787      TP                                         $1,316.80
    06/07/13           417676      TP                                          1,344.80
                           Total Unallowable Direct Cost Expenditures         $2,661.60
Unbudgeted Expenditures – Grant No. 2009-DC-BX-0117
    09/30/12                       Admin BldgRm#56                             $114.04
    09/30/12                       Admin BldgRm#56                              114.04
    09/30/12                       Admin BldgRm#56                              114.04
    09/30/12                       Admin BldgRm#56                              114.04
    09/30/12                       Admin BldgRm#56                              114.04
    09/30/12                       Admin BldgRm#56                              114.04
    09/30/12                       Admin BldgRm#56                              114.04
    09/30/12                       Admin BldgRm#56                              114.04
    09/30/12                       Admin BldgRm#56                              114.04
    09/30/12                       Admin BldgRm#56                              114.04
    09/30/12                       Admin BldgRm#56                              119.82
    09/30/12                       Admin BldgRm#56                              119.82
     Total Unbudgeted Expenditures – Grant No. 2009-DC-BX-0117                $1,380.04
Unbudgeted Expenditures – Grant No. 2011-AC-BX-0016
    02/15/12                       NEWSPAPER HOLDINGS IN                        $13.00
    02/16/12                       SEQUOYAH COUNTY TIMES                         22.57
    02/21/12                       Summarized transaction                       613.17
    03/07/12                       NEWSPAPER HOLDINGS IN                         20.63
    03/31/12                       TAHLEQUAH DAILY PRESS                         11.43
    03/31/12                       MUSKOGEE PHOENIX                              79.84
    04/24/12                       NEIGHBOR NEWSPAPERS                           52.20
     Total Unbudgeted Expenditures – Grant No. 2011-AC-BX-0016                 $812.84




    5
        Proper names have been converted to initials.


                                              13
                                                                                                     APPENDIX IV

                            CHEROKEE NATION RESPONSE
                                                                                                      0ftIce 01. I k   C ~l ot




                                                                        -
                                                      CW),.9 031'

                                        CHEROKEE NATION·
                                                               ..
                                        ........... ,-""-.- ,............ ....                        S. loeCri_
                                                                                                      Dq"" 1'rl...".1     CIoUI
                                                                                                      ..,. KG. .IE"..,,,
                                                                                                      ... PI\ D!.d'1\ OoEl'lG.a


January 29, 2014

David M. Sheeren
Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
1120 Lincoln Street
Denver, Colorado 80203

Dear Mr. Sheeren:

In response to the correspondence received regarding the U.S. Department of Justice (DOJ), Office of Inspector
General (OIG) audit of certain Office of Justice Programs (OJP) grants awarded to Cherokee Nation, the following
information is being providing to you:

    Recommendation 1: Cherokee Nation agrees with this recommendation. Cherokee Nation has within its
    Acquisition Management Manual certain Policies and Procedures regarding Acquisition Management, some of
    which govern contracting. In addition to this manual, Cherokee Nation will conduct training for staff that will re­
    emphasize the controls, includ ing a review of the Acquisition Management Manual. This training may be held as
    early as the end of March 2014.

    Recommendation 2: Cherokee Nation agrees with this recommendation. Cherokee Nation has reviewed these
    direct cost expenditures. Cherokee Nation will worK with the Office of Justice Programs to remedy this issue by the
    end 01 March 2014.

    Recommendation 3: There are two different grants related to this recommendation . As for grant 201'-AC-BX-
    0016, the amount 01 $813 was direct cost expenditures not with in an approved budgeted category. Cherokee
    Nation agrees with th is recommendation. Cherokee Nation will work with the Office of Justice Programs to remedy
    this issue by the end 01 March 2014. As lor grant 2009-0C-BX-Ol17, the amount 0lS1 ,380 was direct cost
    expenditures not within an approved budgeted category. Although Cherokee Nation does agree with th is
    recommendation , the program manager had requested a reallocation to approve the budgeted category and that
    request has been approved. Therefore, this recommendation, regarding grant 2009·DC-BX-0117, has been
    resowed.

    Recommendation 4: Cherokee Nation agrees with th is recommendation . Cherokee Nation has established a
    centralized Grant Services Office. A new Cherokee Nation Grant Manual is expected to be issued by June 30,
    2014, containing procedures for grant reporting .

    If you need any additional in formation , please contact me directly at 918-207-3902 or by email at ~
    hom@cherokee.org.

    Sincerely,



    ~
    Cherokee Nation

    Cc: Jamie Cole
        Cliff Powell
        Tanya Johnson
        Contract Files




                                                           14

                                                                                  APPENDIX V

            OFFICE OF JUSTICE PROGRAMS RESPONSE

                                                  U.S. Department of Justice

                                                  Office ofJustice Programs

                                                 Office ofAudit, Assessment, and Management



                                                 Washington, D.C. 20531
     FEB - 5


MEMORANDUM TO:               David M. Sheeren
                             Regional Audit Manager
                             Denver Regional Audit Office
                             Office of the Inspector General


FROM:                      cilT~A~io~~
                             Acting Director

SUBJECT:                     Response to the Draft Audit Report, Audit of Office ofJustice
                             Programs Grants Awarded to the Cherokee Nation, Tahlequah,
                             Oklahoma

This memorandum is in reference to your correspondence, dated January 8, 2014, transmitting
the above-referenced draft audit report for Cherokee Nation. We consider the subject report
resolved and request written acceptance of this action from your office.

The draft report contains four recommendations and $4,855 in questioned costs. The following
is the Office of Justice Programs' (OJP) analysis of the draft andit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

1.      We recommend that OJP ensure that the Cherokee Nation has controls in place so
        that contracts are signed by all parties prior to performance of any contract work.

        OJP agrees with the recommendation. We will coordinate with the Cherokee Nation to
        obtain a copy of written procedures implemented to ensure that future contracts are
        signed by all parties prior to the performance of any contract work.

2.      We recommend that OJP remedy the $2,662 in unallowable direct cost
        expenditures.

        OJP agrees with the recommendation. We will coordinate with the Cherokee Nation
        to remedy the $2,662 in unallowable direct costs charged to grant number
        2011-AC-BX-OOI6.



                                               15

3.     We recommend that OJP remedy the $2,193 in unallowable expenditures in
       unbudgeted categories.

       OJP agrees with the recommendation. We will coordinate with the Cherokee Nation
       to remedy the $2,193 in unallowable expenditures in unbudgeted categories charged to
       grant numbers 2009-DC-BX-0117 ($1,380) and 2011-AC-BX-0016 ($813).

4.     We recommend that OJP ensure that the Cherokee Nation has a process in place to
       submit all Progress Reports in a timely manner.

       OJP agrees with the recommendation. We will coordinate with the Cherokee Nation to
       obtain a copy of written procedures implemented to ensure that future progress reports
       are timely submitted.

We appreciate the opportunity to review and eomment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Direetor,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Denise O'Donnell
       Director
       Bureau of Justice Assistance

       Tracey Trautman
       Deputy Director for Programs
       Bureau of Justice Assistance

       Eileen Garry
       Deputy Director
       Bureau of Justice Assistance

       James Simonson
       Budget Director
       Bureau of Justice Assistance

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Kathy Mason
       Grant Program Specialist
       Bureau of Justice Assistance

                                               2




                                             16

cc:   Robert Listenbee
      Administrator
      Office of Juvenile Justice and Delinquency Prevention

      Janet Chiancone
      Acting Deputy Administrator
      Office of Juvenile Justice and Delinquency Prevention

      Angela Parker
      Grant Program Specialist
      Office of Juvenile Justice and Delinquency Prevention

      Dawn Doran
      Acting Director
      Office of Sex Offender Sentencing, Monitoring, Apprehending,
        Registering and Tracking

      Faith Baker
      Associate Director
      Office of Sex Offender Sentencing, Monitoring, Apprehending,
        Registering and Tracking

      Richard P. Theis
      Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OlP Executive Secretariat
      Control Number IT20l40109093942




                                                3




                                            17

                                                                    APPENDIX VI

                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS

                  NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the Office of Justice Programs
(OJP) and the Cherokee Nation. The OJP’s response is incorporated as Appendix V
and the Cherokee Nation response is incorporated in Appendix IV of this final
report.

      The following provides the OIG analysis of the responses and a summary of
actions necessary to close the report.

Recommendation Number:

1.	   Resolved. In its response to our recommendation to ensure that the
      Cherokee Nation has controls in place so that contracts are signed by all
      parties prior to performance of any contract work, the Cherokee Nation
      stated that it concurred with the recommendation. The Cherokee Nation
      stated that it has acquisition management policies and procedures within its
      Acquisition Management Manual, and will conduct training for staff to re­
      emphasize the controls and review that document, as early as March 2014.

      In its response, OJP stated that it concurred with our recommendation to
      ensure that the Cherokee Nation has controls in place so that contracts are
      signed by all parties prior to performance of any contract work. OJP stated
      that it will coordinate with the Cherokee Nation to obtain a copy of written
      procedures implemented to ensure that future contracts are signed by all
      parties prior to the performance of any contract work.

      This recommendation can be closed when we receive evidence that the
      Cherokee Nation has conducted staff training to ensure that future contracts
      are signed by all parties prior to the performance of any contract work.

2.	   Resolved. In its response to our recommendation to remedy the $2,662 in
      unallowable direct cost expenditures, the Cherokee Nation stated that it
      concurred with the recommendation, and will work with OJP to remedy the
      unallowable expenditures, by the end of March 2014.

      OJP stated that it concurred with our recommendation to remedy the $2,662
      in unallowable direct costs charged to Grant No. 2011-AC-BX-0016.




                                         18

      This recommendation can be closed when we receive evidence that the
      $2,662 in unallowable direct cost expenditures has been remedied in an
      appropriate manner.

3.	   Resolved. In its response to our recommendation to $2,193 in unallowable
      expenditures in unbudgeted categories, the Cherokee Nation stated that it
      concurred with the recommendation. The Cherokee Nation stated that it has
      been approved for a reallocation of the grant budget for the $1,380 in
      unbudgeted expenditures for Grant No. 2009-DC-BX-0117. For the $813 in
      questioned expenditures for Grant No. 2011-AC-BX-0016, the Cherokee
      Nation stated that it will work with OJP to remedy the unbudgeted amount,
      by the end of March 2014.

      OJP stated that it concurred with our recommendation to remedy the $2,193
      in unallowable expenditures in unbudgeted categories.

      This recommendation can be closed when we receive evidence that the
      $2,193 in unallowable expenditures in unbudgeted categories has been
      remedied in an appropriate manner.

4.	   Resolved. In its response to our recommendation to ensure that the
      Cherokee Nation has a process in place to submit all Progress Reports in a
      timely manner, the Cherokee Nation stated that it concurred with the
      recommendation and has established a centralized Grant Services Office.
      The Cherokee Nation stated that it will issue a Grant Manual containing
      procedures for grant reporting, by June 30, 2014.

      OJP stated that it concurred with our recommendation to ensure that the
      Cherokee Nation has a process in place to submit all Progress Reports in a
      timely manner.

      This recommendation can be closed when we receive evidence that the
      Cherokee Nation has a process in place to submit all Progress Reports in a
      timely manner.




                                        19

